U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

June 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Diana Garvey v. Denis R. McDonough, No. 20-1532
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 29, 2021.
The government’s response is now due, after one extension, on July 6, 2021. We respectfully
request, under Rule 30.4 of the Rules of this Court, a further extension of time to and including
August 6, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1532
GARVEY, DIANA
DENIS R. MCDONOUGH, SECRETARY OF
VETERANS AFFAIRS

ROBERT C. BROWN, JR.
TOMMY KLEPPER & ASSOCIATES, PLLC
702 WALL STREET
SUITE 100
P.O. BOX 721980
NORMAN , OK 73069
405-928-5055
BOBBROWN@TOMMYKLEPPERLAW.COM
KENNETH M. CARPENTER
CARPENTER, CHARTERED
1525 SOUTHWEST TOPEKA BOULEVARD
PO BOX 2099
TOPEKA, KS 66601
785-357-5251
KMCARPENTER@MINDSPRING.COM

